Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MEDICARE NURSING HOME
 RESIDENT HOSPITALIZATION
  RATES MERIT ADDITIONAL
       MONITORING




                    Daniel R. Levinson
                     Inspector General

                     November 2013
                     OEI-06-11-00040
EXECUTIVE SUMMARY: MEDICARE NURSING HOME RESIDENT
HOSPITALIZATION RATES MERIT ADDITIONAL MONITORING
OEI-06-11-00040

WHY WE DID THIS STUDY

Nursing homes hospitalize residents when physicians and nursing staff determine that
residents require acute-level care. Such transfers to hospitals provide residents with
access to needed acute-care services. However, hospitalizations are costly to Medicare,
and research indicates that transfers between settings increase the risk of residents’
experiencing harm and other negative care outcomes. High rates of hospitalizations by
individual nursing homes could signal quality problems within those homes.

HOW WE DID THIS STUDY

We used administrative and billing data both for nursing homes and hospitals to identify
all Medicare residents in Medicare- or Medicaid-certified nursing homes who
experienced hospitalizations—i.e., transfers to hospitals for inpatient stays—in fiscal year
(FY) 2011. We included all Medicare nursing home residents—those in Medicare-paid
skilled nursing and rehabilitative (referred to as “SNF”) stays and those in nursing home
stays not paid for by Medicare, which include long-term care (LTC) stays)—in our
analysis. We calculated the percentage of Medicare nursing home residents that each
nursing home hospitalized. We identified the diagnoses associated with these
hospitalizations, calculated Medicare reimbursements for the hospital stays, and
calculated the rates and costs of hospitalizations of nursing home residents. We also
examined the extent to which annual rates of resident hospitalizations varied among
individual nursing homes.

WHAT WE FOUND

In FY 2011, nursing homes transferred one quarter of their Medicare residents to
hospitals for inpatient admissions, and Medicare spent $14.3 billion on these
hospitalizations. Nursing home residents went to hospitals for a wide range of
conditions, with septicemia the most common. Annual rates of Medicare resident
hospitalizations varied widely across nursing homes. Nursing homes with the following
characteristics had the highest annual rates of resident hospitalizations: homes located in
Arkansas, Louisiana, Mississippi, or Oklahoma and homes with one, two, or three stars in
the Centers for Medicare & Medicaid Services’ (CMS) Five-Star Quality Rating System.

WHAT WE RECOMMEND

In its comments on the draft report, CMS concurred with both of our recommendations
to: (1) develop a quality measure that describes nursing home resident hospitalization
rates and (2) instruct State survey agencies to review the proposed quality measure as part
of the survey and certification process.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................6 

Findings......................................................................................................10 

           One-quarter of Medicare nursing home residents experienced                                  

           hospitalizations in FY 2011, and Medicare spent $14.3 billion 

           on these hospitalizations ................................................................10 

           Nursing home residents went to hospitals most commonly for
           septicemia, pneumonia, and congestive heart failure ....................11

           Nursing homes’ annual rates of resident hospitalization varied 

           according to select characteristics, including geographic    

           location and rating in CMS’s Five-Star Quality Rating System ....13 

Conclusion and Recommendations ............................................................17 

           Agency Comments and Office of Inspector General Response.....18 

Appendixes ................................................................................................19 

           A: Nursing Home Quality Measures.............................................19 

           B: Detailed Methodology for Categorizing the Primary                            

           Diagnosis Codes on Hospital Claims .............................................20 

           C: Average Annual Rate of Hospitalization of Nursing                              

           Home Residents by State ...............................................................21 

           D: Agency Comments ...................................................................22 

Acknowledgments......................................................................................24 

                   OBJECTIVES
                   1.	 To determine the percentage of Medicare nursing home residents
                       hospitalized in fiscal year (FY) 2011 and the associated costs to
                       Medicare.
                   2.	 To identify the medical conditions most commonly associated with
                       these hospitalizations.
                   3.	 To determine the extent to which these hospitalization rates varied
                       across nursing homes.
                   4.	 To determine the extent to which these hospitalization rates varied
                       according to select nursing home characteristics.

                   BACKGROUND
                   Nursing homes send residents to hospitals when physicians or nursing
                   staff determine that residents require acute-level care. These transfers to
                   hospitals provide residents with access to needed acute-care services.1
                   However, research indicates that transfers between health care facilities
                   increase the risk of residents’ experiencing harm and other negative care
                   outcomes and that these hospitalizations are costly to Medicare.2 The
                   harm that residents experience during hospitalizations can include
                   disruption of their care plans, disorientation, stress, and iatrogenic illness
                   (e.g., adverse events).3, 4, 5 The Centers for Medicare & Medicaid Services
                   (CMS), in its 2012 Nursing Home Action Plan, suggests that negative
                   outcomes associated with hospitalizations are further complicated because
                   health care providers often do not communicate critical information when
                   transferring the residents.6 Financial costs associated with hospitalizations
                   of nursing home residents include, but are not limited to, Medicare

                   1
                     D. Saliba, “Appropriateness of the Decision to Transfer Nursing Facility Residents to
                   the Hospital,” Journal of the American Geriatrics Society, 48, 2, 2000, p. 155.

                   2
                     Assistant Secretary for Planning and Evaluation (ASPE), Hospitalizations of Nursing

                   Home Residents: Background and Options, June 2011, p. 1.

                   3
                     D. Saliba, op. cit., pp. 154–155. 

                   4
                     J.G. Ouslander, “Reducing Potentially Avoidable Hospitalizations of Nursing Home

                   Residents: Results of a Pilot Quality Improvement Project,” Journal of the American 

                   Medical Directors Association, 2009, p. 645. 

                   5
                     E. Hutt, “Precipitants of Emergency Room Visits and Acute Hospitalization in Short-

                   Stay Medicare Nursing Home Residents,” Journal of the American Geriatrics Society, 

                   50, 2, 2002, pp. 223–224. 

                   6
                     CMS, 2012 Nursing Home Action Plan, 2012. Accessed at 

                   http://www.cms.gov/Medicare/Provider-Enrollment-and-
                   Certification/CertificationandComplianc/Downloads/2012-Nursing-Home-Action-
                   Plan.pdf on February 5, 2013. 


Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)           1
                   reimbursements for hospital stays, physician services during these stays,
                   and applicable copayments.
                   Although nursing homes may hospitalize residents primarily for clinical
                   reasons, research indicates that several nonclinical factors can also
                   influence homes’ decisions to hospitalize residents. These factors include
                   the availability and training of nursing staff in the home, resident and
                   family member preferences, and physician availability and preferences.7
                   Additionally, research suggests that aspects of Medicare payment policies
                   and other economic factors can influence hospitalization rates.8, 9
                   Payment for Hospitalizations. Medicare pays for hospitalizations of
                   nursing home residents primarily by reimbursing acute-care hospitals
                   according to the Inpatient Prospective Payment System (IPPS).10 Under
                   IPPS, hospitals may submit Medicare claims with codes from the Internal
                   Classification of Diseases, 9th Revision, Clinical Modification (ICD-9-CM
                   codes) representing resident conditions and procedures for each hospital
                   stay.11 Payment for most Medicare resident hospitalizations is determined
                   largely by grouping the diagnosis and procedure codes into
                   Diagnosis-Related Groups based on the average cost of care for residents
                   with similar conditions.
                   Nursing Homes
                   There are two primary types of care for Medicare beneficiaries in nursing
                   homes: skilled nursing and rehabilitative care (referred to as “SNF”)12 and
                   long-term care (LTC). Over 90 percent of nursing homes can admit
                   residents into either type of care, depending on their clinical needs.13

                   7
                     ASPE, Hospitalizations of Nursing Home Residents: Background and Options, 

                   June 2011, pp. 6–7.

                   8
                     Ibid., pp. 8–14. 

                   9
                     Congressional Research Service (CRS), Medicare Hospital Readmissions: Issues, 

                   Policy Options and PPACA [the Patient Protection and Affordable Care Act], 

                   September 21, 2010, pp. 11–17. 

                   10
                      CMS does not pay all hospitals for resident stays through the IPPS. CMS pays several
                   types of hospitals (e.g., critical access hospitals, inpatient psychiatric hospitals) and most
                   hospitals in Maryland through alternate payment methodologies. CMS, Pub. No. 100-04
                   Medicare Claims Processing, April 2004. Accessed at http://www.cms.gov/Regulations-
                   and-Guidance/Guidance/Transmittals/downloads/R156CP.pdf on March 18, 2013.
                   11
                      The ICD-9-CM system assigns diagnoses and procedure codes associated with hospital
                   stays and is maintained jointly by CMS and the National Center for Health Statistics.
                   CMS, Acute Inpatient PPS Overview, last modified February 22, 2010. Accessed at
                   http://www.cms.gov/AcuteInpatientPPS/01_overview.asp on March 18, 2013.
                   12
                      In this report, we use the commonly used acronym for skilled nursing facility (“SNF”)
                   to describe residents in skilled nursing and rehabilitative stays covered under Medicare
                   Part A (i.e., “SNF residents”).
                   13
                      Medicare Payment Advisory Committee (MedPAC), Report to the Congress:
                   Medicare Payment Policy, Skilled Nursing Facility Services, March 2013, p. 161.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)             2
                   Federal law requires all nursing homes to provide residents with care that
                   enables them to attain or maintain the highest practicable physical, mental,
                   and psychosocial well-being.14 (In this report, we refer to all Medicare
                   beneficiaries in nursing homes as “residents” or “nursing home
                   residents.”)
                   SNF Care in Nursing Homes. In 2011, about 20 percent of all hospitalized
                   Medicare beneficiaries went to 1 of the 15,207 nursing homes for SNF
                   care following their hospital stays.15 Examples of nursing home residents
                   in SNF stays include those recovering from surgical procedures performed
                   in hospitals (e.g., hip or knee replacements) or recovering from acute
                   medical conditions (e.g., septicemia, urinary tract infection, heart
                   failure).16 In 2009, the Medicare Standard Analytical Files (SAF)
                   categorized over 50 percent of residents in Medicare Part A SNF care as
                   having illnesses of major or extreme severity.17
                   Medicare beneficiaries have access to SNF care benefits through Medicare
                   Part A. Medicare coverage of SNF care is typically limited to 100 days
                   per benefit period.18 Examples of services provided to SNF residents
                   include the development, management, and evaluation of resident care
                   plans; physical therapy; administration of intravenous feedings; insertion
                   of suprapubic catheters; medication management; and wound care. CMS
                   pays for SNF care when residents have preceding hospital stays of at least
                   3 days and a medical professional verifies the need for nursing and
                   rehabilitative care related to the hospitalizations.19 In 2011, Medicare
                   Part A paid $32 billion for SNF stays for Medicare beneficiaries.20
                   LTC in Nursing Homes. Nursing home residents in LTC stays typically
                   need assistance accomplishing two or more activities of daily living
                   (e.g., eating, bathing, dressing, walking). This group includes, but is not
                   limited to, Medicare beneficiaries who are also enrolled in a State
                   Medicaid program (known as dual eligibles).
                   State Medicaid requirements specify that nursing home residents in LTC
                   stays must have access to several services including basic nursing care,
                   14
                      Social Security Act § 1819 (b)(2) and §1919 (b)(2).
                   15
                      MedPAC, Report to the Congress: Medicare Payment Policy, Skilled Nursing Facility 

                   Services, March 2013, p. 161. 

                   16
                      Ibid. 

                   17
                      Avalere Publishing, Medicare SAF Data Book, 2009, p. 27. 

                   18
                      CMS, Medicare Benefit Policy Manual: Duration of Covered Inpatient Services, 

                   Chapter 3, October 1, 2003.
                   19
                      CMS, Medicare Benefit Policy Manual: Coverage of Extended Care (SNF) Services
                   Under Hospital Insurance, Chapter 8, April 4, 2012.
                   20
                      MedPAC, Report to the Congress: Medicare Payment Policy, Skilled Nursing Facility
                   Services, March 2012, p. 171.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)    3
                   medical-related social services, pharmaceutical services, specialized
                   rehabilitative services, individualized dietary services, emergency dental
                   services, and other quality-of-life services.21 Medicare Part A does not pay
                   for LTC stays in nursing homes, but Medicare Part B may pay for certain
                   LTC services (e.g., enteral nutrition) for these nursing home residents.22, 23
                   Payment for Medicare beneficiaries’ nursing home LTC comes from
                   sources other than Medicaid, including personal resources, LTC insurance,
                   or (if beneficiaries are dual eligibles) Medicaid.
                   Medicare Oversight of Nursing Homes
                   CMS verifies that Medicare- and Medicaid-certified nursing homes
                   comply with Federal requirements.24 It enters into agreements with State
                   survey agencies to conduct onsite reviews of each nursing home to certify
                   compliance with Federal requirements.25 When surveyors identify
                   noncompliance, CMS requires nursing homes to submit plans of
                   correction and to correct the problems. If nursing homes do not correct
                   the problems, CMS may take enforcement actions. These actions include
                   imposing civil monetary penalties, denying payment for new admissions
                   of Medicare residents, or terminating the nursing home from participation
                   in Medicare and Medicaid.26
                   Nursing Home Quality Measures. Nursing homes routinely collect
                   resident assessment data at specific intervals during a nursing home stay,
                   and CMS stores the assessment results in the Minimum Data Set (MDS).27
                   CMS converts MDS data into 18 Quality Measures (QM).28, 29 The QMs

                   21
                      CMS, Nursing Facilities. Accessed at http://www.medicaid.gov/Medicaid-CHIP-
                   Program-Information/By-Topics/Delivery-Systems/Institutional-Care/Nursing-Facilities-
                   NF.html on January 22, 2013.
                   22
                      CMS. What is Long-Term Care?, August 3, 2012. Accessed at
                   http://www.medicare.gov/longtermcare/static/home.asp on May 15, 2013
                   23
                      Office of Inspector General (OIG), Medicare Part B Services During Non-Part A
                   Nursing Home Stays: Enteral Nutrient Pricing, January 2010, pp. 2-4.
                   24
                      Nursing Home Reform Act as part of the Omnibus Budget Reconciliation Act of 1987;
                   42 CFR Part 483. 

                   25
                      42 CFR §§ 488.308(a), 488.330(a)(1)(i), and CMS, Survey and Certification: General 

                   Information, April, 11, 2013. Accessed at http://www.cms.gov/Medicare/Provider-
                   Enrollment-and-
                   Certification/SurveyCertificationGenInfo/index.html?redirect=/surveycertificationgeninf

                   o/ on May 15, 2013. 

                   26
                      42 CFR §§ 488.402(d), 488.408, and 488.456. 

                   27
                      CMS, MDS 3.0 for Nursing Homes and Swing Bed Providers. Accessed at 

                   http://www.cms.gov/Medicare/Quality-Initiatives-Patient-Assessment-
                   Instruments/NursingHomeQualityInits/NHQIMDS30.html on March 4, 2013.
                   28
                      CMS, Nursing Home Quality Initiative: Quality Measures. Accessed at
                   http://www.cms.gov/Medicare/Quality-Initiatives-Patient-Assessment-
                   Instruments/NursingHomeQualityInits/NHQIQualityMeasures.html on April 16, 2013.
                   29
                      See Appendix A for a complete listing of the 18 QMs.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)      4
                   indicate how well a nursing home provides care to its residents. Examples
                   of QMs include the percentage of residents who report moderate to severe
                   pain, the percentage of residents who were appropriately given the
                   seasonal influenza vaccine, and the percentage of residents who have lost
                   significant amounts of weight.30 CMS provides QMs to nursing homes for
                   them to use in quality improvement efforts. Currently, the QMs do not
                   include a measure of how often nursing homes hospitalize residents.
                   Public Reporting of QMs and Other Data Through the Five-Star Quality
                   Rating System. CMS publicly reports nursing home QMs through the
                   Five-Star Quality Rating System. CMS gives each Medicare- and
                   Medicaid-certified nursing home an overall rating between one and five
                   stars. A rating of one star indicates that a nursing home is “much below
                   average” in terms of quality, and a rating of five stars indicates that a
                   nursing home is “much above average.”31
                   CMS bases the overall five-star rating on the nursing homes’ ratings in
                   three areas: performance on inspection surveys (survey metric), QMs
                   (quality metric), and staffing (staffing metric). CMS calculates these three
                   metrics as follows:
                        	 The survey metric is based on points assigned to the results of
                           nursing home surveys, complaint surveys, and survey revisits
                           conducted within the last 3 years.
                        	 The quality metric is based on nursing homes’ performance on
                           10 QMs. Seven of the QMs relate to LTC residents (e.g., mobility
                           decline, use of physical restraints), and the three remaining QMs
                           relate to SNF residents (e.g., delirium, level of pain).
                        	 The staffing metric is based on registered nurse (RN) hours per
                           resident day and total staffing hours (hours by RNs, licensed
                           practical nurses, and nurse aides).
                   Efforts To Monitor and Reduce Rates of Hospitalization and
                   Other Types of Transfers
                   Rates of hospitalizations and other types of resident transfers have
                   received increased attention from government agencies and key
                   stakeholders because of the resident risk and high associated cost.
                   30
                      RTI [Research Triangle Institute] International, MDS 3.0 Quality Measures User’s
                   Manual. Accessed at http://www.cms.gov/Medicare/Quality-Initiatives-Patient-
                   Assessment-Instruments/NursingHomeQualityInits/Downloads/MDS-30-QM-Users-
                   Manual-V60.pdf on February 19, 2013.
                   31
                      CMS, Consumer Fact Sheet, December 2008. Accessed at
                   http://www.cms.gov/Medicare/Provider-Enrollment-and-
                   Certification/CertificationandComplianc/Downloads/consumerfactsheet.pdf on
                   October 4, 2013.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)       5
                   Congress, through the Affordable Care Act, established several initiatives
                   designed to reduce hospital resident readmissions.32, 33 CMS publicly
                   reports hospital readmission rates, has requested that Quality Improvement
                   Organizations examine resident transfers, and is developing nursing home
                   surveyor guidance related to the evaluation of hospitalizations of nursing
                   home residents.34, 35, 36 The National Quality Forum (NQF) adopted
                   measures of hospital performance based on hospital resident readmission
                   rates.37 MedPAC made recommendations to CMS to limit payment
                   policies that incentivize unnecessary hospitalizations of nursing home
                   residents.38 Researchers have suggested changes to Medicare payment
                   policies that can reduce hospitalization rates for the benefit of both the
                   program and beneficiaries.39, 40 The provider community has also focused
                   attention on developing best practices to reduce hospitalizations of nursing
                   home residents.41

                   METHODOLOGY
                   To determine the percentage of Medicare residents transferred to hospitals
                   for acute inpatient stays in FY 2011, we collected nursing home resident
                   assessment data from the MDS, beneficiary information from the
                   Enrollment Database (EDB), and hospital claims data from the National
                   Claims History (NCH). We combined these data sources to identify all
                   transfers of Medicare nursing home residents to hospitals for inpatient
                   stays. For this report, we defined a Medicare nursing home resident as
                   any Medicare beneficiary who stayed in a Medicare- or Medicaid-certified

                   32
                      Patient Protection and Affordable Care Act of 2010, P.L. 111-148 § 3025.

                   33
                      CMS, Community-Based Care Transitions Program Fact Sheet. Accessed at 

                   http://innovations.cms.gov/Files/fact-sheet/Community-based-Care-Transitions-Program-
                   Fact-Sheet-.pdf on February 5, 2013.

                   34
                      CMS, Hospital Quality Initiatives: Outcome Measures. Accessed at 

                   https://www.cms.gov/HospitalQualityInits/20_OutcomeMeasures.asp on January 12, 

                   2012. 

                   35
                      CMS, Medicare Quality Improvement Organization 9th Scope of Work, p. 69.
                   Accessed at
                   http://www.cms.gov/QualityImprovementOrgs/Downloads/9thSOWBaseContract_C_08-
                   01-2008_2_.pdf on September 13, 2011.
                   36
                      CMS, 2012 Nursing Home Action Plan, 2012, pp. 25–26 and 37–39. 

                   37
                      NQF, Candidate Hospital Care Additional Priorities: 2007 Performance Measure. 

                   Washington, DC, 2007. 

                   38
                      MedPAC, Report to the Congress: Reforming the Delivery System, June 2008, p. 87.

                   39
                      ASPE, Hospitalizations of Nursing Home Residents: Background and Options, 

                   June 2011, pp. 15–23. 

                   40
                      CRS, Medicare Hospital Readmissions: Issues, Policy Options and PPACA, 

                   September 21, 2010, pp. 18–36. 

                   41
                      National Transitions of Care Coalition, 2011. Accessed at http://www.ntocc.org/ on

                   September 13, 2011.


Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)     6
                   nursing home for at least 1 day in FY 2011. We defined a hospitalization
                   as an instance when a Medicare nursing home resident went to a hospital
                   for a Medicare-reimbursed inpatient stay within 1 day of discharge from a
                   nursing home.
                   Identifying Hospitalizations of Medicare Nursing Home
                   Residents
                   We identified hospitalizations of Medicare nursing home residents using
                   data from the MDS, the EDB, and the NCH. To identify all Medicare
                   beneficiaries who were nursing home residents in FY 2011, we used the
                   MDS and the EDB. The MDS contains resident Social Security Numbers
                   (SSN), admission and discharge dates, and the related nursing home
                   identification numbers. We matched SSNs in the MDS to those in the
                   EDB to identify Medicare beneficiaries and their associated Medicare
                   Health Insurance Claim Numbers. We excluded from this analysis the
                   small number of beneficiaries in the MDS who had SSNs that did not
                   match their SSNs as listed in the EDB. We used the Medicare Part A
                   claims data in the NCH to determine whether nursing home residents
                   entered hospitals following their nursing home stays and to determine
                   whether the nursing home stays were reimbursed through Medicare
                   Part A.42
                   The resulting data set enabled us to determine when beneficiaries were
                   admitted to nursing homes, whether they were discharged from nursing
                   homes, and whether they were hospitalized following discharge from
                   nursing homes.
                   Analysis
                   Using the data set described above, we determined the percentage of
                   Medicare nursing home residents hospitalized in FY 2011, the Medicare
                   costs associated with hospitalizations of nursing home residents, the
                   medical conditions associated with the hospitalizations, each nursing
                   home’s rate of resident hospitalization (which we refer to as the “annual
                   hospitalization rate”), and the extent to which annual hospitalization rates
                   varied according to select characteristics. For analysis, we combined all
                   Medicare nursing home residents—those in Medicare-paid SNF stays and


                   42
                     We excluded nursing home stays that occurred in “swing bed” units within hospitals
                   from our analysis. (A swing-bed unit is a hospital unit in which residents receive skilled
                   nursing services.) We excluded these stays because the associated facilities differ
                   substantially from the freestanding nursing homes that are the focus of this report.
                   Excluding these stays removed 111,298 stays and 1,149 hospital swing-bed facilities
                   from our analysis. CMS, Swing Bed Services, January 2013. Accessed at
                   http://www.cms.gov/Outreach-and-Education/Medicare-Learning-Network-
                   MLN/MLNProducts/downloads/SwingBedFactsheet.pdf on March 18, 2013.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)          7
                   those in nursing home stays not paid by Medicare—and refer to them as
                   “Medicare nursing home residents” or “nursing home residents.”
                   Calculating the Percentage of Hospitalized Nursing Home Residents. To
                   calculate the percentage of nursing home residents hospitalized, we
                   divided the total number of Medicare nursing home residents hospitalized
                   at least once in FY 2011 by the total number of residents who had nursing
                   home stays of at least 1 day in FY 2011.
                   Calculating the Medicare Costs Associated With Resident
                   Hospitalizations. We calculated the amount Medicare spent on
                   hospitalizations of nursing home residents by summing the Medicare
                   reimbursements for each hospital stay that we identified as a
                   hospitalization of a Medicare nursing home resident. These costs
                   represent only the amounts that Medicare paid hospitals for the residents’
                   acute-care hospital stays. Our analysis included payments made to IPPS
                   and non-IPPS hospitals. When hospitalized residents were transferred
                   from their initial hospitals to other hospitals, we combined the
                   reimbursements paid by Medicare to each hospital.43
                   We calculated the amount Medicare spent on all hospitalizations of
                   Medicare beneficiaries by summing Part A reimbursements for all hospital
                   stays with admission dates in FY 2011.
                   Identification of Medical Conditions Associated With Hospitalization. To
                   identify the medical conditions associated with hospitalizations of nursing
                   home residents, we reviewed the primary ICD-9-CM diagnosis codes on
                   the Medicare claims submitted for the hospital stays. To categorize the
                   diagnosis codes, we used the clinical classification system (CCS) of the
                   Agency for Healthcare Research and Quality’s (AHRQ) Healthcare Cost
                   and Utilization Project (HCUP). The CCS enables researchers to collapse
                   ICD-9-CM codes into clinically meaningful categories for analysis and
                   comparison between studies. 44
                   Calculating Annual Hospitalization Rates for Nursing Homes. To
                   calculate the annual hospitalization rate for each nursing home in
                   FY 2011, we divided the number of nursing home stays that ended in
                   hospitalization in a given home by the total number of nursing home stays

                   43
                      Under CMS’s transfer policy, CMS reduces reimbursements for hospitalizations under
                   several scenarios, including instances when residents are transferred to other hospitals
                   covered by the IPPS. CMS, Acute Care Hospital Inpatient Prospective Payment System,
                   February 2012. Accessed at http://www.cms.gov/Outreach-and-Education/Medicare-
                   Learning-Network-MLN/MLNProducts/downloads/AcutePaymtSysfctsht.pdf on
                   March 18, 2013.
                   44
                      See Appendix B for a detailed description of the methodology we used to describe the
                   ICD-9-CM codes on the hospital claims using the HCUP CCS.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)        8
                   of at least 1 day in the home. We calculated annual hospitalization rates
                   only for homes that provided care to 30 or more Medicare residents in
                   FY 2011.
                   Analysis of Characteristics Associated With Variation in Annual
                   Hospitalization Rates. To determine whether annual hospitalization rates
                   varied according to select nursing characteristics, we divided homes into
                   subgroups based on characteristics and then calculated average annual
                   hospitalization rates for the subgroups. To determine how much annual
                   hospitalization rates varied by geographic location, we divided homes into
                   groups by the State code in their billing addresses and then calculated the
                   average annual hospitalization rate for nursing homes in each State and the
                   District of Columbia. To determine how much annual hospitalization rates
                   varied by scores on the four CMS Five-Star Quality Rating System
                   metrics, we divided nursing homes into two groups—one group consisting
                   of those with one, two, or three stars and the other consisting of those with
                   four or five stars—for each metric and calculated the rates for each group.
                   To determine how much annual hospitalization rates varied by nursing
                   home size, we divided nursing homes into three categories based on the
                   number of beds within each home and then calculated the rate for each
                   group. To determine how much annual hospitalization rates varied by
                   ownership type, we divided nursing homes into three groups based on
                   ownership type and then calculated the rate for each group.
                   We collected information on nursing homes’ locations, bed counts, and
                   ownership categories from CMS’s Certification and Survey Provider
                   Enhanced Reports (CASPER) database. CMS provided five-star ratings
                   data applicable to our observation period.
                   Limitations. The annual hospitalization rates are not adjusted to account
                   for “case mix”—in this instance, the physical and mental health of
                   residents in a given nursing home—or other factors. Additionally, the cost
                   figures associated with the hospitalizations of nursing home residents do
                   not include copayments for the hospital stays, physician reimbursements
                   for the hospital stays, or payments made by the Medicare program or other
                   payers for post-hospitalization services (e.g., followup physician office
                   visits). Therefore, we likely underestimate the costs associated with
                   hospitalizations of nursing home residents to the Medicare program and
                   beneficiaries.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)   9
                   FINDINGS
                   One-quarter of Medicare nursing home residents
                   experienced hospitalizations in FY 2011, and Medicare
                   spent $14.3 billion on these hospitalizations
                   Of the 3.3 million Medicare residents who stayed in nursing homes for at
                   least 1 day in FY 2011, 825,765 (24.8 percent) experienced
                   hospitalizations. The majority of hospitalized residents (67.8 percent)
                   transferred from nursing homes to hospitals only once. Twenty percent
                   transferred two times, 7.2 percent transferred three times, and the
                   remaining 5 percent transferred four or more times (see Figure 1).
                   Figure 1: Number of Hospitalizations Experienced by Hospitalized
                   Medicare Residents Who Resided in Nursing Homes in FY 2011

                                                                                                               Two 
                                                                                                          hospitalizations
                                                                                                              20.0%




                               One                                                                            Three 
                          hospitalization                                                                 hospitalizations
                              67.8%                                                                            7.2%



                                                                                                           Four or more 
                                                                                                          hospitalizations
                                                                                                               5.0%

                    Source: OIG analysis of data on FY 2011 hospitalizations of nursing home residents.


                   Medicare spent $14.3 billion in FY 2011 on hospital stays for
                   nursing home residents, spending 33 percent more per stay
                   than for the average Medicare hospitalization
                   Medicare spent $14.3 billion on 1.3 million hospital stays associated with
                   hospitalizations of nursing home residents. These costs represent
                   11.4 percent of Medicare Part A spending on all hospital admissions
                   ($126 billion) in the same year.45 Medicare spent an average of
                   $11,255 on each hospitalization of a nursing home resident, which was
                   33.2 percent above the average cost ($8,447) of hospitalizations for all
                   Medicare residents.

                   45
                      Cost estimates presented in this report are based only on reimbursements paid by
                   Medicare Part A for the initial hospitalizations. They do not include any other costs paid
                   by Medicare or by other payers for further medical care—such as physician office visits
                   or additional nursing home stays—needed as a result of the hospitalizations.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)                           10
                   Nursing home residents went to hospitals most
                   commonly for septicemia, pneumonia, and congestive
                   heart failure
                   Medicare nursing home residents went to hospitals for a wide range of
                   conditions—236 of the possible 285 primary diagnosis categories
                   described in the HCUP CCS. The primary diagnosis describes the most
                   significant medical condition found during an inpatient admission.46 The
                   15 most frequent CCS diagnosis categories accounted for 60.9 percent of
                   all resident hospitalizations (see Table 1).
                   Table 1: Primary Diagnoses on Claims of All Hospitalized Medicare
                   Nursing Home Residents in FY 2011
                                                                                                            Percentage of
                    CCS Primary Diagnosis Category
                                                                                                          Hospitalizations
                    Fifteen Most Frequent CCS Categories                                                            60.9%
                        Septicemia                                                                                  13.4%
                        Pneumonia                                                                                    7.0%
                        Congestive heart failure, nonhypertensive                                                    5.8%
                        Urinary tract infections                                                                     5.3%
                        Aspiration pneumonitis, food/vomitus                                                         4.0%
                        Acute renal failure                                                                          3.9%
                        Complication of device, implant, or graft                                                    3.3%
                        Respiratory failure, insufficiency, or arrest                                                2.7%
                        Gastrointestinal hemorrhage                                                                  2.4%
                        Complications of surgical procedures or medical care                                         2.4%
                        Chronic obstructive pulmonary disease (COPD) and bronchiectasis                              2.4%
                        Delirium, dementia, and amnestic and other cognitive disorders                               2.2%
                        Acute cerebrovascular disease                                                                2.1%
                        Fluid and electrolyte disorders                                                              2.0%
                        Fracture of neck of femur (hip)                                                              2.0%
                    Remaining 221 CCS Categories on Nursing Home Claims                                             39.1%
                    All CCS Diagnosis Categories on Nursing Home Claims                                             100%
                    Source: OIG analysis of data on FY 2011 hospitalizations of nursing home residents.


                   Hospitalizations for septicemia accounted for 21 percent of
                   Medicare spending on nursing home resident hospitalizations
                   Septicemia led to the most hospitalizations among all CCS categories
                   (13.4 percent). Septicemia and sepsis (a related condition) are serious
                   bloodstream infections that can rapidly become life threatening.47



                   46
                      CMS, Medicare Claims Processing Manual, Chapter 23, “Fee Schedule
                   Administration and Coding Requirements.”
                   47
                      Centers for Disease Control and Prevention (CDC), Inpatient Care of Septicemia or
                   Sepsis: A Challenge for Patients and Hospitals, National Center for Health Statistics
                   Data Brief, 2011. In the data brief, CDC found that the rate of nursing home resident
                   hospitalizations for septicemia more than doubled from 2000 to 2008 and that
                   hospitalizations for septicemia ended in death much more often than hospitalizations for
                   all other conditions.
Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)                    11
                   Medicare spent almost $3 billion on nursing home resident
                   hospitalizations associated with septicemia, more than the next three most
                   expensive conditions combined. The high total reimbursement amount for
                   septicemia is the result of both its frequency as a primary diagnosis on
                   hospital claims and its above-average reimbursement rate. Table 2 shows
                   the costs associated with the 15 most costly CCS diagnosis categories.
                   Table 2: Medicare Costs Associated With Medicare Nursing Home
                   Resident Hospitalizations in FY 2011 by Sum of Reimbursement
                                                                           Sum of            Percentage of
                                                                                                                        Average
                    CCS Primary Diagnosis Category                    All Hospital             All Hospital
                                                                                                                  Reimbursement
                                                                  Reimbursements          Reimbursements
                    Fifteen Most Costly CCS Categories               $9,268,066,011                       65.2%         $11,554
                        Septicemia                                   $2,963,329,522                       20.8%         $17,430
                        Pneumonia                                      $844,817,051                       5.9%           $9,464
                        Congestive heart failure,
                                                                       $643,386,174                       4.5%           $8,731
                        nonhypertensive
                        Respiratory failure, insufficiency,
                                                                       $637,201,272                       4.5%          $18,438
                        or arrest
                        Complication of device, implant, or
                                                                       $619,241,745                       4.3%          $14,629
                        graft
                        Aspiration pneumonitis,
                                                                       $618,310,799                       4.3%          $12,223
                        food/vomitus
                        Complications of surgical
                                                                       $449,236,625                       3.2%          $14,731
                        procedures or medical care
                        Acute renal failure                            $425,965,874                       3.0%           $8,679
                        Urinary tract infections                       $422,251,024                       3.0%           $6,296
                        Delirium, dementia, and amnestic
                                                                       $321,003,626                       2.3%          $11,515
                        and other cognitive disorders
                        Fracture of neck of femur (hip)                $311,417,099                       2.2%          $12,578
                        Acute cerebrovascular disease                  $285,667,898                       2.0%          $10,847
                        Gastrointestinal hemorrhage                    $264,867,028                       1.9%           $8,544
                        COPD and bronchiectasis                        $238,845,320                       1.7%           $7,727
                        Acute myocardial infarction                    $222,524,954                       1.6%          $11,475
                    Remaining 221 CCS Categories                     $4,991,830,494                       34.4%         $11,188
                    All CCS Diagnosis Categories on
                                                                    $14,259,896,509                       100%          $11,211
                    Nursing Home Claims
                    Source: OIG analysis of data on FY 2011 hospitalizations of nursing home residents.




Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)                          12
                   Nursing homes’ annual rate of resident hospitalization
                   varied according to select characteristics, including
                   geographic location and rating on CMS’s Five-Star
                   Quality Rating System
                   Nursing homes’ individual annual hospitalization rates varied widely,
                   ranging from less than 1 percent to 69.7 percent. The annual
                   hospitalization rate averaged 25 percent. Additionally, 1,059 nursing
                   homes (7 percent) had annual hospitalization rates greater than 40 percent.
                   Table 5 shows the distribution of annual hospitalization rates among
                   Medicare- and Medicaid-certified nursing homes.
                   Table 5: Percentages of Nursing Homes by Annual Hospitalization Rate in
                   FY 2011
                                                                                                          Percentage of
                    Annual Hospitalization Rate
                                                                                                                Homes
                    Above 50 percent                                                                              0.6%
                    40 percent to 49.9 percent                                                                    6.2%
                    30 percent to 39.9 percent                                                                   22.1%
                    20 percent to 29.9 percent                                                                   39.9%
                    10 percent to 19.9 percent                                                                   26.9%
                    Less than 9.9 percent                                                                         4.3%
                    All Homes                                                                                   100.0%
                    Source: OIG analysis of data on FY 2011 hospitalizations of nursing home residents.

                   Nursing homes’ annual hospitalization rates varied by the four
                   characteristics that we examined: the nursing home’s geographic location,
                   its size, its rating on CMS’ Five-Star Quality Rating System, and the
                   category of its ownership.48
                   Homes with high annual hospitalization rates were not evenly
                   distributed across the country
                   Nursing homes in Arkansas, Louisiana, Mississippi, and Oklahoma had
                   the highest annual hospitalization rates when averaged at the State level.
                   The average hospitalization rate for nursing homes in Louisiana
                   (38.3 percent) was 14 percentage points higher than the national average
                   (24.3 percent). Generally, nursing homes in States in the upper Pacific
                   West, Mountain West, upper North Central Midwest, and New England




                   48
                     The extent of identified variations suggests that average annual rates of hospitalization
                   differed by the reviewed characteristics, but we do not try to explain these variations.
                   Other factors—such as State bed hold policies—have been shown to influence
                   hospitalization rates. D.C. Grabowski, “Medicaid bed-hold policy and Medicare skilled
                   nursing facility rehospitalizations,” Health Services Research, 45, 6, 2010,
                   pp. 1963–1980.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)                   13
                   regions had the lowest average annual hospitalization rates (see
                   Figure 2).49
                   Figure 2: Geographic Distribution of Average Annual Hospitalization Rate in
                   FY 2011




                   Source: OIG analysis of data on FY 2011 hospitalizations of nursing home residents.

                   In general, nursing homes rated one, two, or three stars on the
                   Nursing Home Compare Five-Star Quality Rating System had
                   higher annual hospitalization rates than those rated as four or
                   five stars
                   Nursing homes rated one, two, or three stars (the lowest five-star ratings)
                   on three of the four metrics (the overall, survey, and staffing metrics) had
                   higher annual hospitalization rates than those rated four or five stars (the
                   highest five-star ratings). The biggest difference between annual
                   hospitalization rates appears in the staffing metric, where nursing homes
                   rated one, two, or three stars had hospitalization rates that were
                   5 percentage points higher than that of those rated four or five stars. The
                   exception is the quality metric, where nursing homes rated one, two, or
                   three stars had the same hospitalization rate as those rated four or five
                   stars (see Figure 3).




                   49
                     Appendix C lists the average annual hospitalization rates for nursing homes in all
                   States. Regions are defined by the Census Bureau.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)        14
                   Figure 3: Annual Hospitalization Rate by Five-Star Rating in FY 2011
                    30%     26.7%           26.1%            27.3%            25.1% 25.1%
                                  22.8%           23.0%            22.3%
                    20%

                    10%

                      0%
                                Overall Metric           Survey Metric           Staffing Metric            Quality Metric

                                                 Nursing homes rated one, two, or three stars
                                                 Nursing homes rated four or five stars
                   Source: OIG analysis of data on FY 2011 hospitalizations of nursing home residents.

                   Large and medium-sized nursing homes had higher annual
                   hospitalization rates than small nursing homes
                   Small nursing homes had annual hospitalization rates 2.4 percentage
                   points lower than the national average. Large and medium-sized nursing
                   homes had annual hospitalization rates 1.6 and 0.9 percentage points
                   higher than the national average, respectively (see Table 6).
                   Table 6: Annual Hospitalization Rate by Nursing Home Size in FY 2011
                                                                                                                     Percentage
                                                                                          Average Annual
                                                                        Number                                   Point Difference
                     Size of Home                                                          Hospitalization
                                                                      of Homes                                              From
                                                                                                     Rate
                                                                                                                   National Rate
                      Nationwide                                         15,497*                         25.0%                 n/a
                        Large nursing homes (more than
                                                                           4,749                         26.6%               1.6%
                         120 beds)
                        Medium-sized nursing homes
                                                                           5,539                         25.9%               0.9%
                         (80–120 beds)
                        Small nursing homes (fewer than
                                                                           5,209                         22.6%               -2.4%
                         80 beds)
                    Source: OIG analysis of data on FY 2011 hospitalizations of nursing home residents. 

                    *CASPER did not contain bed count information for one home.


                   As a group, for-profit nursing homes had the highest annual
                   hospitalization rate compared to the rate for
                   government-owned and nonprofit nursing homes
                   As shown in Table 7, for-profit homes had an annual hospitalization rate
                   1.5 percentage points higher than the national average.
                   Government-owned and nonprofit homes had annual hospitalization rates
                   about 1.5 and 3.8 percentage points lower than the national average,
                   respectively.




Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)                              15
                   Table 7: Average Annual Hospitalization Rate by Ownership Category in
                   FY 2011
                                                                                                                    Percentage
                                                                            Percentage
                                                                                                   Average                Point
                                                                            of Medicare
                                                             Number                                 Annual           Difference
                    Ownership Category                                       Population
                                                           of Homes                          Hospitalization              From
                                                                                Served
                                                                                                       Rate            National
                                                                               Annually
                                                                                                                           Rate
                    Nationwide                                15,497*           109.0%**                25.0%               n/a

                       For-profit nursing homes               10,761              76.4%                26.5%             1.5%

                       Government-owned public
                                                                  850               4.8%                23.5%            -1.5%
                        nursing homes

                       Nonprofit nursing homes                 3,886              27.8%                21.2%            -3.8%
                    Source: OIG analysis of data on FY 2011 hospitalizations of nursing home residents. 

                    *CASPER did not contain ownership information for one home. 

                    **Percentage exceeds 100 percent because some residents received care in multiple nursing homes. 





Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)                           16
                   CONCLUSION AND RECOMMENDATIONS
                   We found that nursing homes hospitalized one-quarter of nursing home
                   residents in FY 2011, that these hospitalizations cost Medicare
                   $14.3 billion, and that a small number of medical conditions
                   (e.g., septicemia) accounted for the majority of hospitalizations and
                   costs. We also identified wide variation in rates of hospitalization among
                   individual nursing homes. Among 1,059 nursing homes, more than
                   40 percent of stays ended in hospitalization. Nursing homes in certain
                   States (Arkansas, Louisiana, Mississippi, and Oklahoma) and nursing
                   homes rated as one, two, or three stars on CMS’s Five-Star Quality Rating
                   System had the highest average annual hospitalization rates.
                   Hospitalizations of nursing home residents are necessary when physicians
                   and nursing staff determine that residents require acute-level care.
                   However, the higher-than-average resident hospitalization rates of some
                   nursing homes in FY 2011 suggest that some hospitalizations could have
                   been avoided through better nursing home care.
                   We recommend that CMS:
                   Develop a QM That Describes Nursing Home Rates of Resident
                   Hospitalization
                   CMS should develop a QM of nursing home rates of resident
                   hospitalization and consider publicly reporting this measure on the
                   Nursing Home Compare Web site. One possible QM could be a measure
                   of each home’s overall hospitalization rate. Alternatively, CMS could
                   develop more discrete measures that would identify nursing homes that
                   hospitalize residents more frequently than other homes for certain
                   conditions. Adding a measure of hospitalization rates to the existing QMs
                   not only would enable nursing homes and the public to compare these
                   rates across nursing homes, but also would provide greater incentive for
                   nursing homes to reduce avoidable hospitalizations.
                   Instruct State Agency Surveyors To Review Nursing Home
                   Rates of Resident Hospitalization as Part of the Survey and
                   Certification Process
                   After developing the QM recommended above, CMS should instruct State
                   survey agencies to use the QM in preparing to survey homes and provide
                   the agencies with guidance for interpreting and using the QM. Examining
                   these data could help surveyors identify areas of concern—such as
                   infection control practices in homes with high rates of hospitalizations for
                   septicemia—within individual nursing homes.



Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)   17
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on the draft report, CMS concurred with both of our
                   recommendations.
                   CMS concurred with the recommendation to develop a QM that describes
                   nursing home rates of resident hospitalization. CMS stated that it is taking
                   steps to develop and implement a nursing home hospitalization QM in
                   accordance with the rulemaking process. Further, CMS indicated that it is
                   developing a skilled nursing facility readmission measure, which it intends
                   to submit to the National Quality Forum for endorsement in late 2013.
                   CMS also concurred with the recommendation to instruct State survey
                   agency surveyors to review rates of hospitalization for nursing home
                   residents as part of the survey and certification process. CMS indicated
                   that surveyors should consider measures of hospitalization during their
                   nursing home reviews. CMS stated that reducing hospitalizations is a
                   major public health goal and that hospitalization measures can be used to
                   assess the quality of care that nursing home residents receive.
                   For the full text of the CMS’s comments, see Appendix D. We made
                   minor changes to the report based on technical comments.




Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)   18
                   APPENDIX A
                   Nursing Home Quality Measures
                   Nursing homes routinely collect resident assessment data at specific
                   intervals during a nursing home stay, and CMS stores the assessment
                   results in the MDS. CMS converts MDS data into the 18 QMs described
                   in Table A-1. 50

                   Table A-1: Nursing Home Quality Measures
                    Short Stay Quality Measures
                        1. Percent of Residents Who Self-Report Moderate to Severe Pain
                        2. Percent of Residents With Pressure Ulcers That Are New or Worsened
                        3. Percent of Residents Who Were Assessed and Appropriately Given the Seasonal Influenza Vaccine
                        4. Percent of Residents Who Were Assessed and Appropriately Given the Pneumococcal Vaccine
                        5. Percent of Short-Stay Residents Who Newly Received Antipsychotic Medications
                    Long-Stay Quality Measures
                        6. Percent of Residents Experiencing One or More Falls With Major Injury
                        7. Percent of Residents Who Self-Report Moderate to Severe Pain
                        8. Percent of High-Risk Residents With Pressure Ulcers
                        9. Percent of Residents Who Were Assessed and Appropriately Given the Seasonal Influenza Vaccine
                        10. Percent of Residents Who Were Assessed and Appropriately Given the Pneumococcal Vaccine
                        11. Percent of Residents With Urinary Tract Infections
                        12. Percent of Low-Risk Residents Who Lose Control of Their Bowels or Bladder
                        13. Percent of Residents Who Have/Had Catheters Inserted and Left in Their Bladders
                        14. Percent of Residents Who Were Physically Restrained
                        15. Percent of Residents Whose Need for Help With Activities of Daily Living Has Increased
                        16. Percent of Residents Who Lose Too Much Weight
                        17. Percent of Residents Who Have Depressive Symptoms
                        18. Percent of Long-Stay Residents Who Received Antipsychotic Medications
                    Source: CMS, MDS 3.0 QM User’s Manual V8.0.




                   50
                      CMS, Nursing Home Quality Initiative: Quality Measures. Accessed at
                   http://www.cms.gov/Medicare/Quality-Initiatives-Patient-Assessment-
                   Instruments/NursingHomeQualityInits/NHQIQualityMeasures.html on April 16, 2013.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)                   19
                   APPENDIX B
                   Detailed Methodology for Categorizing the Primary Diagnosis
                   Codes on Hospital Claims
                   To describe the ICD-9-CM codes on the hospitalized residents’ inpatient
                   claims, we used the CCS established by AHRQ’s HCUP.51 The HCUP
                   CCS enables researchers to identify patterns of diagnosis and procedure
                   codes. Researchers use the CCS to collapse the ICD-9-CM system’s
                   14,000 diagnosis codes and 3,900 procedure codes into a smaller number
                   of clinically meaningful categories for presentation and analysis. AHRQ
                   used the CCS in its 2012 review of data on hospitalizations of nursing
                   home residents.52
                   For this review, we used the CCS “single-level” categorization. The
                   single-level categorization system is designed for ranking diagnoses and
                   procedures. We matched the primary diagnosis codes on the hospital
                   claims associated with the hospitalizations to the appropriate CCS
                   single-level category. See Table B-1 for an example of how the CCS
                   collapses individual ICD-9-CM codes into clinically meaningful groups.
                   Table B-1: Examples of Single-Level CCS Matching
                    General
                                                                                        ICD-9-CM Diagnosis       CCS
                    Description of
                                                                                               Codes Used    Category
                    Condition
                                            0031 0202 0223 0362 0380 0381 03810 03811 03812
                    Septicemia              03819 0382 0383 03840 03841 03842 03843 03844 03849                    2
                                            0388 0389 0545 449 77181 7907
                                            00322 0203 0204 0205 0212 0221 0310 0391 0521
                                            0551 0730 0830 1124 1140 1144 1145 11505 11515
                                            11595 1304 1363 4800 4801 4802 4803 4808 4809
                    Pneumonia               481 4820 4821 4822 4823 48230 48231 48232 48239                      122
                                            4824 48240 48241 48242 48249 4828 48281 48282 48283
                                            48284 48289 4829 483 4830 4831 4838 4841 4843
                                            4845 4846 4847 4848 485 486 5130 5171
                    Congestive heart
                                            39891 4280 4281 42820 42821 42822 42823 42830 42831
                    failure,                                                                                     108
                                            42832 42833 42840 42841 42842 42843 4289
                    nonhypertensive
                    Source: HCUP, Clinical Classifications Software (CCS) 2013 User Guide.




                   51
                      A. Elixhauser, C. Steiner, and L. Palmer, Clinical Classifications Software (CCS),
                   AHRQ, 2013. Accessed at http://www.hcup-us.ahrq.gov/toolssoftware/ccs/ccs.jsp on
                   February 5, 2013.
                   52
                      AHRQ, Transitions between Nursing Homes and Hospitals in the Elderly Population,
                   2009, September 2012. Accessed at http://www.hcup-
                   us.ahrq.gov/reports/statbriefs/sb141.pdf on February 5, 2013.

Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)                  20
                   APPENDIX C
                   Average Annual Rate of Hospitalization of Nursing Home
                   Residents by State
                   Table C-1 reports the average annual rates of resident hospitalization in
                   FY 2011 for nursing homes in all States. We did not include in this
                   analysis homes with fewer than 30 admissions in FY 2011 or facilities
                   designated as “swing bed” providers.

                   Table C-1: Average Annual Hospitalization Rates by State in FY 2011
                    State                         Rate     State                         Rate     State                           Rate
                    Louisiana                   38.3%      Maryland                    25.3%      Nevada                      20.9%
                    Mississippi                 35.7%      Indiana                     24.9%      New Mexico                  19.5%
                    Arkansas                    31.7%      Florida                     24.9%      Wyoming                     19.1%
                    Oklahoma                    31.6%      Michigan                    24.8%      New Hampshire               19.0%
                    Kentucky                    29.2%      Virginia                    24.8%      Washington                  18.6%
                    Illinois                    29.0%      Connecticut                 24.7%      Wisconsin                   18.3%
                    Tennessee                   28.4%      California                  24.2%      Vermont                     17.9%
                    New Jersey                  28.2%      North Carolina              24.2%      Colorado                    17.8%
                    Texas                       28.2%      Delaware                    24.2%      Maine                       17.2%
                    Missouri                    27.9%      Pennsylvania                23.4%      Montana                     17.0%
                    Kansas                      27.5%      South Dakota                23.4%      Alaska                      16.9%
                    New York                    27.4%      Ohio                        23.0%      Arizona                     16.7%
                    Alabama                     26.9%      Iowa                        22.9%      Minnesota                   16.0%
                    West Virginia               26.5%      Nebraska                    22.7%      Idaho                       15.9%
                    District Of Columbia        26.5%      Massachusetts               22.5%      Oregon                      14.9%
                    Georgia                     26.3%      Rhode Island                21.6%      Utah                        14.2%
                    South Carolina              25.3%      North Dakota                21.4%      Hawaii                      10.6%
                    Source: Office of Inspector General analysis of data on FY 2011 hospitalizations of nursing home residents.




Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)                                 21
                        APPENDIX D
                        Agency Comments



  t 'f-	
    /,P.VIt<s....


                     DEPARTMENT OF HEALTH & HUMAN SERVICllS                                                        Centers for Medicare & Medicaid Services

   ,~~                                                                                                             Administrator
                                                                                                                   Washington, DC 20201



                    DATE: 	             SEP 19 2013
                    TO: 	               Daniel R. Levinson 

                                        Inspector General 


                    FROM: 	             Marilya "l:aveilner 
 /S/
                                        Administralor 


                    SUBJECT: 	 Office oflnspector Geneml (OIG) Draft Report: Medicare Nursing Home Resident
                               Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)

                    The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                    comment on the above subject OIG draft report. Nursing home quality measurement and oversight is of
                    critical importance to us, including addressing unnecessary hospital admissions and readmissions. One
                    example, focusing on dual eligible beneficiaries, is the CMS Initiative to Reduce Avoidable
                    Hospitalizations among Nursing Facility Residents. In this initiative, which was launched in 2012,
                    CMS selected organizations to partner with nursing facilities and deploy interventions aimed at
                    reducing avoidable hospitalizations, improving transitions and outcomes, and reducing costs among
                    Medicare-Medicaid enrollees. Lessons learned from this initiative wiii help inform future policy
                    decisions. 1

                    In addition, the Fiscal Year (FY) 2014 President's Budget includes a proposal addressing high rates
                    of hospital readmissions in skilled nursing facilities (SNFs). Currently, there is a Hospital
                    Readmission Reduction program that reduces payments for hospitals with high rates of readmission,
                    many of which could have been avoided with better care. To promote similar high-quality care in
                    SNFs, the President' s Budget proposal would reduce payments by up to three percent for SNFs with
                    high rates of care-sensitive, preventable hospital readmissions .

                    The purpose of this OIG study was to (I) Determine the proportion of Medicare nursing home
                    residents hospitalized in FY 2011 and the associated costs to Medicare; (2) IdentifY the medical
                    conditions most commonly associated with these hospitalizations; (3) Describe the extent to which
                    these hospitalization rates varied across nursing homes; and (4) Describe the extent to which these
                    hospitalization rates varied according to select nursing home characteristics.

                    The OIG recommendations and CMS's responses to those recommendations are discussed below.

                    OIG Recommendation

                    The OIG recommends that CMS develop a quality measure that describes hospitalization mtes for
                    residents of nursing homes.


                    1 Additional   information on this initiative is available at htto://jnnovation.cms.gov/initiali\:es/rahnjj:




Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)                                                            22
Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)   23
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Kevin K. Golladay,
                   Regional Inspector General for Evaluation and Inspections in the Dallas
                   regional office; Blaine Collins, Deputy Regional Inspector General; and
                   Ruth Ann Dorrill, Deputy Regional Inspector General.
                   Jeremy Moore served as the team leader for this study. Other principal
                   Office of Evaluation and Inspections staff from the Dallas regional office
                   who contributed to the report include Maria Balderas, Nathan Dong, and
                   Chetra Yean. Central office staff who provided support include
                   Kevin Farber, Heather Barton, Sandy Khoury, Starr Kidda, and Christine
                   Moritz.




Medicare Nursing Home Resident Hospitalization Rates Merit Additional Monitoring (OEI-06-11-00040)   24
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
